Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




CMS HAS YET TO ENFORCE
 A STATUTORY PROVISION
RELATED TO RURAL HEALTH
        CLINICS




                        Suzanne Murrin
                  Deputy Inspector General for
                   Evaluation and Inspections

                       September 2014
                       OEI-05-13-00290
EXECUTIVE SUMMARY: CMS HAS YET TO ENFORCE A STATUTORY
PROVISION RELATED TO RURAL HEALTH CLINICS
OEI-05-13-00290

WHY WE DID THIS STUDY
The Rural Health Clinic (RHC) certification was created in 1977 to address the shortage
of physicians in rural areas. RHCs had to meet two location requirements: (1) being
located in rural areas and (2) being located in areas that have a shortage of health care
providers. RHCs receive enhanced Medicare and Medicaid reimbursements for most
services.

Prior to the enactment of the Balanced Budget Act of 1997 (BBA), RHCs retained their
certifications indefinitely. However, the BBA removed their permanent status and
allowed for the termination of RHCs that no longer met the location requirements as long
as they were not determined to be “essential provider” RHCs.

A 2005 Office of Inspector General report found that nearly 300 RHCs did not meet the
location requirements and that the Centers for Medicare & Medicaid Services (CMS) had
not issued regulations that would allow RHCs to apply as essential-provider RHCs.

HOW WE DID THIS STUDY
We plotted RHC locations onto a digital map to determine whether RHCs met the two
location requirements in 2013. Additionally, we used 2012 claims data to calculate the
amount Medicare paid to the RHCs we determined did not meet the location
requirements. Finally, we reviewed Federal regulations and interviewed CMS staff to
determine whether essential-provider criteria had been established or were in the process
of being established.

WHAT WE FOUND
Approximately 12 percent of RHCs no longer met the location requirements in 2013.
Pursuant to the BBA, these RHCs should continue to qualify as RHCs—and receive
enhanced reimbursement—only if they are determined to be essential providers.
However, CMS has yet to issue final regulations that would allow RHCs that do not meet
the location requirements to qualify as essential-provider RHCs.

WHAT WE RECOMMEND
More than 16 years have elapsed since Congress directed CMS to issue regulations that
would allow RHCs that no longer meet location criteria to qualify as essential providers.
Without these regulations, CMS can neither terminate RHCs nor identify them as
essential providers in accordance with the BBA provision. Consequently, RHCs that no
longer meet location criteria continue to receive enhanced reimbursement. To ensure that
CMS can enforce the BBA provisions relating to RHCs, we recommend that CMS issue
regulations to ensure that RHCs determined to be essential providers remain certified as
RHCs. CMS responded to the report but neither concurred nor nonconcurred with our
recommendation.
TABLE OF CONTENTS

Objective ......................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................6 

           Approximately 12 percent of RHCs no longer meet the location 

           requirements .....................................................................................6 

           CMS has yet to issue final regulations that would allow RHCs that 

           do not meet the location requirements to qualify as essential 

           providers ..........................................................................................7 

Conclusion and Recommendation ...............................................................8 

           Agency Comments and Office of Inspector General Response.......9 

Appendixes ................................................................................................10 

           A: Definitions and Criteria for Health Care Shortage Areas ........10 

           B: Agency Comments ...................................................................12 

Acknowledgments......................................................................................13

                   OBJECTIVES
                             1.	 To determine the extent to which Rural Health Clinics (RHCs)
                                 no longer meet the location requirements.
                             2.	 To determine whether the Centers for Medicare & Medicaid
                                 Services (CMS) has taken steps to address a prior Office of
                                 Inspector General (OIG) recommendation to issue regulations
                                 defining the criteria for RHCs to be deemed “essential
                                 providers.”

                   BACKGROUND
                   Rural Health Clinics
                   The RHC certification was created in 1977 to address the shortage of
                   physicians in rural areas by providing enhanced reimbursement.1 To
                   ensure that RHCs could be located only in rural areas with documented
                   physician shortages, CMS specified two location-based criteria
                   (hereinafter known as the location requirements) in the RHC Conditions of
                   Participation.2 RHCs had to be (1) located in nonurbanized areas, as
                   defined by the Census Bureau (hereafter referred to as rural areas), and
                   (2) located in one of the following types of health care shortage areas, as
                   defined by the Health Resources and Services Administration (HRSA):3
                            Primary Care Geographic Health Professional Shortage Area
                             (HPSA)4
                            Primary Care Population Group HPSA5
                            Medically Underserved Area (MUA)6
                            Governor-designated and Secretary-certified shortage area under
                             the Omnibus Budget Reconciliation Act of 19897
                   For a detailed description of each type of shortage area, see Appendix A.

                   1
                     Rural Health Clinic Services Act of 1977, P. L. No. 95-210.
                   2
                     Conditions of Participation are requirements that providers must meet to participate in
                   Medicare.
                   3
                     Social Security Act, § 1861(aa)(2); 42 U.S.C. § 1395x(aa)(2); CMS, Rural Health
                   Clinic: Rural Health Fact Sheet Series, January 2013. HPSAs are subject to annual
                   reviews (76 Fed. Reg. 68198 (Nov. 3, 2011)). MUAs are not subject to regular reviews
                   (Negotiated Rulemaking Committee on the Designation of Medically Underserved
                   Populations and Health Professional Shortage Areas: Final Report to the Secretary,
                   October 31, 2011, p.18).

                   4
                     Public Health Services (PHS) Act, § 332(a)(1)(A). 

                   5
                     PHS Act, § 332(a)(1)(B).

                   6
                     PHS Act, § 330(b)(3).

                   7
                     Section 6213(c). 




CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)                 1
                   Most of the information that the RHC location requirements draw on
                   is updated periodically. Census-defined urbanized areas are updated every
                   10 years, following the decennial Census.8 HPSAs are updated
                   approximately once every 4 years; HRSA prioritizes designations that are
                   more than 3 years old for recertification.9 Currently, MUAs are never
                   updated.10
                   RHCs receive enhanced reimbursements from Medicare and Medicaid.
                   These enhanced reimbursements are based on costs.11 Medicare
                   reimbursements to RHCs are subject to a per-visit payment limit, which
                   was approximately $80 in 2013.12 Per-visit Medicare payment limits do
                   not apply to RHCs that are part of a hospital with fewer than 50 beds.13
                   In 2013, there were 4,019 RHCs providing services in 44 States in the
                   United States. Medicare and beneficiaries paid approximately $1 billion
                   for services provided at these RHCs.
                   Creation of “Essential Provider” RHCs
                   In 1996, both OIG and the Government Accountability Office (GAO)
                   recommended that CMS ensure that the RHC certification apply only to
                   facilities in areas that would otherwise be underserved, rather than in rural
                   areas that are designated as health care shortage areas but have high
                   concentrations of medical providers.14, 15
                   In response to the OIG and GAO recommendations, the Balanced Budget
                   Act of 1997 (BBA) removed RHCs’ permanent status and allowed for the
                   creation of an exemption process for RHCs that would otherwise be


                   8
                     United States Census Bureau, 2010 Census Urban Area FAQs. Accessed at
                   http://www.census.gov/geo/reference/ua/uafaq.html on May 23, 2014.
                   9
                     76 Fed. Reg. 68198 (Nov. 3, 2011).
                   10
                      Negotiated Rulemaking Committee on the Designation of Medically Underserved
                   Populations and Health Professional Shortage Areas: Final Report to the Secretary,
                   October 31, 2011, p. 18. In March 2014, HRSA staff stated that they are in the process of
                   promulgating an interim final rule that would set a recertification schedule for MUAs.
                   11
                      CMS, Rural Health Clinic: Rural Health Fact Sheet Series, January 2013; Health
                   Resources and Services Administration (HRSA), What are rural health clinics (RHCs)?
                   Accessed at http://www.hrsa.gov/healthit/toolbox/RuralHealthITtoolbox/Introduction/
                   ruralclinics.html on May 23, 2014.
                   12
                      CMS, Announcement of the Medicare Rural Health Clinic (RHC) and Federally
                   Qualified Health Center (FQHC) Payment Rate Increases, November 23, 2012.
                   Accessed at http://www.cms.gov/Outreach-and-Education/Medicare-Learning-Network-
                   MLN/MLNMattersArticles/downloads/MM8119.pdf on May 23, 2014.
                   13
                      CMS, Rural Health Clinic: Rural Health Fact Sheet Series, January 2013.
                   14
                      OIG, Rural Health Clinics: Growth, Access, and Payment, OEI-05-94-00040, 

                   July 1996. 

                   15
                      GAO, Rural Health Clinics: Rising Program Expenditures Not Focused on Improving

                   Care in Isolated Areas, GAO-HEHS-97-24, November 1996.



CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)            2
                   terminated from the Medicare program. Prior to the BBA, RHCs that
                   initially met the location requirements retained their RHC certifications
                   indefinitely, effectively making the RHC certification permanent. The
                   BBA specified the RHCs that were in areas that no longer qualified as
                   nonurbanized areas or shortage areas would continue to qualify as RHCs
                   only if they were determined to be “essential to the delivery of primary
                   care services that would otherwise be unavailable in the geographic area
                   served by the clinics” (hereafter referred to as essential-provider RHCs).16
                   Further, the BBA specified that the Secretary of Health and Human
                   Services should issue regulations that would establish the criteria used to
                   determine essential-provider RHCs, and that those regulations should take
                   effect no later than January 1, 1999.17
                   Rulemaking Process
                   Agencies like CMS must follow the Administrative Procedure Act, which
                   governs rulemaking. Typically, an agency must publish a proposed rule in
                   the Federal Register and invite the public to comment on it. The agency
                   uses the proposed rule and public comments as the basis for the final rule,
                   which it publishes—along with the date the rule goes into effect—in the
                   Federal Register.18
                   The Medicare Prescription Drug, Improvement, and Modernization Act
                   (MMA), which became law on December 8, 2003, made a change to the
                   rulemaking process for all agencies within the Department of Health and
                   Human Services, including CMS. Specifically, the MMA established that
                   no more than 3 years may pass between the publication of a proposed rule
                   or interim final and the publication of a final rule except under exceptional
                   circumstances. In the event of such circumstances, a notice of the
                   different timeline must be published in the Federal Register.19
                   Related Work
                   OIG has a body of work that examines the location of RHCs. In addition
                   to its 1996 report, OIG issued a report in 2005 that found that, in 2003,
                   279 RHCs were not located in rural areas or in health care shortage areas
                   and that RHCs were often located near other health care providers.20 OIG
                   recommended on the basis of these findings that CMS issue regulations

                   16
                      Balanced Budget Act of 1997, P.L. No. 105-33 § 4205(d)(3)(A). New RHCs are still 

                   required to meet the original location requirements—that is, they must be located in rural 

                   areas and in designated health care shortage areas.

                   17
                      Balanced Budget Act of 1997, P.L. No. 105-33 § 4205(d)(4)(C)(ii). 

                   18
                      5 U.S.C. § 553.

                   19
                      Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L.

                   No. 108-173 § 902(a)(1).

                   20
                      OIG, Status of the Rural Health Clinic Program, OEI-05-03-00170, August 2005. 




CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)              3
                   defining essential-provider criteria for RHCs. In its May 2005 comments
                   on our report, CMS concurred with the recommendation and stated that it
                   intended to issue new rules for RHCs in early 2006.

                   METHODOLOGY
                   Scope
                   We analyzed RHC locations to identify those that in 2013 were no longer
                   located in rural areas or in health care shortage areas. We excluded RHCs
                   with locations that we were unable to confidently determine. We also
                   calculated the amount that Medicare and beneficiaries paid to RHCs in
                   2012.
                   We focused on the 2005 OIG report’s recommendation that CMS issue
                   regulations defining essential-provider criteria for RHCs.
                   Data Collection and Analysis
                   We requested from HRSA a list of RHC addresses and corresponding
                   latitudes and longitudes. HRSA created this list using a three-step process:
                   (1) compiling addresses for all RHCs enrolled in Medicare in 2013, using
                   CMS’s Certification and Survey Provider Enhanced Reports (CASPER);
                   (2) running these addresses through the address standardizer
                   Trillium 13.5;21, 22 and (3) identifying latitudes and longitudes for these
                   standardized addresses using Esri’s StreetMap Premium 2013.23 There
                   were 4,019 RHCs on this list.
                   We excluded 498 RHCs from our analysis because they were geocoded
                   only to the city, State, or ZIP Code level, rather than to the address level.24
                   We felt that these levels of geocoding were not precise enough to
                   determine whether these RHCs met the location requirements.
                   We mapped the latitudes and longitudes of the remaining 3,521 RHCs
                   onto a digital map using ArcGIS. We used this map, along with the
                   2013 boundaries of urbanized areas and health care shortage areas, to
                   identify RHCs that did not meet the location requirements.



                   21
                      The CASPER database includes data generated from certification surveys and includes
                   information such as provider addresses and enrollment dates. 

                   22
                      Trillium 13.5 standardizes name and address elements and corrects spelling and other 

                   errors. 

                   23
                      StreetMap Premium is an enriched street dataset that works with Esri’s ArcGIS 

                   software to allow for geocoding, routing, and turn-by-turn directions. Geocoding is the 

                   process of turning standard addresses into latitude and longitude coordinates.

                   24
                      These 498 RHCs had complete addresses but the geocoding software could map their 

                   locations with confidence only to the center of a city, State, or ZIP Code. 




CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)            4
                   Using data from CMS’s 2012 Outpatient Standard Analytic Files—the
                   most recent complete claims data—we calculated the amount Medicare
                   and beneficiaries paid to RHCs that did not meet the location
                   requirements.
                   Finally, we reviewed Federal regulations and interviewed CMS staff to
                   determine whether essential-provider criteria had been established or were
                   in the process of being established.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)   5
                   FINDINGS
                   Approximately 12 percent of RHCs no longer meet the
                   location requirements
                   Of the 3,521 RHCs included in our analysis, 434 no longer meet the
                   location requirements. Fifty-nine percent of these RHCs are located in
                   areas not designated as shortage areas. Another 39 percent of these RHCs
                   are located in urbanized areas. The final 2 percent were located in areas
                   that were neither rural nor designated as shortage areas. Medicare and
                   beneficiaries paid approximately $132 million to these RHCs in 2012.
                   Table 1 provides the number of RHCs that do not meet the location
                   requirements and the amounts paid by Medicare and beneficiaries in 2012.
                   Table 1: Number of RHCs that did not meet the location requirements and
                   amounts paid to them by Medicare and beneficiaries
                   Characteristics of RHCs that did not                  Number of            Amount paid by Medicare and
                   meet the location requirements                           RHCs               beneficiaries to these RHCs
                   Located in a rural area but not in a health
                                                                                 257                          $84.6 million
                   care shortage area
                   Located in a health care shortage area
                                                                                 169                          $46.7 million
                   but not in a rural area
                   Located in neither a health care shortage
                                                                                   8                            $0.8 million
                   area nor a rural area
                      Total                                                      434                         $132.1 million
                   Source: OIG analysis of 2013 RHC locations and 2012 outpatient claims data, 2014.




                   The number of RHCs that no longer meet the location requirements has
                   increased by approximately 56 percent since 2003, when OIG found that
                   279 RHCs did not meet the location requirements.
                   RHCs may no longer meet location requirements because health care
                   shortage areas and urbanized areas change periodically. HPSAs are
                   updated approximately every 4 years; urbanized areas are updated every
                   10 years, following the decennial Census.
                   Pursuant to the BBA, RHCs that no longer meet the location requirements
                   should continue to qualify as RHCs only if they are determined to be
                   essential providers.

                   CMS has yet to issue final regulations that would allow
                   RHCs that do not meet the location requirements to
                   qualify as essential providers
                   Sixteen years have passed since Congress directed CMS to issue
                   regulations outlining the criteria that RHCs could use to qualify as
                   essential providers, and CMS has not finalized such regulations. CMS has


CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)                           6
                   twice promulgated proposed rules, but neither rule was finalized by the
                   Department of Health and Human Services. There remains no final rule
                   establishing essential-provider criteria for RHCs. As such, RHCs continue
                   to operate without the option to apply as essential providers.
                   In addition, the CMS staff who are responsible for developing and
                   overseeing RHC-related policies state that they are not currently planning
                   to reissue the more recent of the two proposed rules or to develop a
                   replacement. Because CMS did not finalize the most recent proposed rule
                   within 3 years of its publication date, the agency would need to reissue the
                   proposed rule and go through the rulemaking process again.




CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)   7
                   CONCLUSION AND RECOMMENDATION
                   More than 16 years have elapsed since Congress directed CMS to issue
                   regulations to ensure that only RHCs determined to be essential providers
                   remain certified as RHCs, and more than 8 years have elapsed since CMS
                   told OIG that it planned to issue the regulations. Although CMS has
                   promulgated proposed rules regarding essential-provider criteria for
                   RHCs, it has yet to publish a final rule establishing these criteria.
                   Meanwhile, the number of RHCs that do not meet the location
                   requirement has increased by 56 percent since 2003.
                   To ensure that CMS can enforce the BBA provisions relating to RHCs, we
                   recommend that CMS:
                   Issue regulations to ensure that RHCs determined to be
                   essential providers remain certified as RHCs.
                   The BBA requires that RHCs that no longer meet the location
                   requirements and that are not determined to be essential providers be
                   terminated from the program. However, CMS has yet to issue regulations
                   defining essential-provider criteria for RHCs; consequently, all RHCs
                   remain certified as RHCs and continue to receive enhanced Medicare and
                   Medicaid reimbursements. CMS should issue these regulations so that
                   only RHCs determined to be essential providers continue to receive
                   enhanced reimbursements.




CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)   8
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS responded to the report but neither concurred nor nonconcurred with
                   our recommendation.
                   We continue to encourage CMS to issue regulations to ensure that RHCs
                   determined to be essential providers remain certified as RHCs, as doing so
                   will help protect Medicare and Medicaid dollars from going to providers
                   that no longer qualify for the enhanced reimbursements that RHCs
                   receive. Without regulations that define essential provider criteria, all
                   RHCs—including those that no longer meet the location requirements—
                   remain certified and continue to receive enhanced Medicare and Medicaid
                   reimbursements. We will routinely follow up with CMS about
                   implementing this recommendation.
                   For the full text of CMS’s comments, see Appendix B.




CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)   9
                   APPENDIX A
                   Definitions and Criteria for Health Care Shortage Areas
                   1.	 A Primary Care Geographic Health Professional Shortage Area
                       (HPSA) must:
                             o	 Be a rational area for the delivery of primary care medical
                                services;
                             o	 Meet one of the following conditions:
                                          Have a population to full-time-equivalent primary care
                                           physician ratio of at least 3,500:1, or
                                          Have a population to full-time-equivalent primary care
                                           physician ratio of less than 3,500:1 but greater than
                                           3,000:1 and have unusually high needs for primary
                                           health care services or insufficient capacity of existing
                                           primary care providers.
                             o	 Demonstrate that primary medical professionals in contiguous
                                areas are overutilized, excessively distant, or inaccessible to the
                                population under consideration.25
                   2.	 A Primary Care Population Group HPSA must:
                             o	 Reside in an area in that is rational for the delivery of primary
                                medical care services as defined in the Federal code of
                                regulations.

                             o	 Have access barriers that prevent the population group from
                                use of the area’s primary medical care providers.

                             o	 Have a ratio of persons in the population group to number of
                                primary care physicians practicing in the area and serving the
                                population group ratio of at least 3,000:1.




                   25
                     Public Health Services (PHS) Act, § 332(a)(1)(A); 42 CFR pt. 5, Appendix A, pt. 1;
                   HRSA, Primary Medicare Care HPSA Designation Overview. Accessed at
                   http://bhpr.hrsa.gov/shortage/hpsas/designationcriteria/primarycarehpsaoverview.html on
                   April 8, 2014.



CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)          10
                             o	 Members of federally recognized Native American tribes are
                                automatically designated. Other groups may be designated if
                                the meet the basic criteria described above.26

                   3.	 A Medically Underserved Area (MUA) is:
                             o Defined by the Index of Medical Underservice (IMU).

                                          The IMU scale is from 0 to 100, where 0 represents
                                           completely underserved and 100 represents best served
                                           or least underserved.

                                          Under the established criteria, each service area found
                                           to have an IMU of 62.0 or less qualifies for designation
                                           as an MUA.

                             o	 The IMU involves four variables—ratio of primary medical
                                care physicians per 1,000 population, infant mortality rate,
                                percentage of the population with incomes below the poverty
                                level, and percentage of the population age 65 or over.

                                          The value of each of these variables for the service area
                                           is converted to a weighted value, according to
                                           established criteria.

                                          The four values are summed to obtain the area’s IMU
                                           score.27

                   4.	 A Governor-designated and Secretary-certified shortage area is an area
                       designated by the chief executive office of the State and certified by
                       the Secretary as an area with a shortage of personal health services.28




                   26
                      Public Health Services (PHS) Act, § 332(a)(1)(B); 42 CFR pt. 5, Appendix A, pt. 2,

                   HRSA, Primary Medicare Care HPSA Designation Overview. Accessed at

                   http://bhpr.hrsa.gov/shortage/hpsas/designationcriteria/primarycarehpsaoverview.html on

                   April 8, 2014. 

                   27
                      PHS Act § 330I(a)(4); 42 CFR § 51c.102(e); HRSA, Medically Underserved Areas/ 

                   Populations. Accessed at http://www.hrsa.gov/shortage/mua/index.html on

                   April 8, 2014. 

                   28
                      Omnibus Budget Reconciliation Act of 1989 P. L. No. 101-239 § 6213(c); HRSA, 

                   Medically Underserved Areas/ Populations. Accessed at 

                   http://www.hrsa.gov/shortage/mua/index.html on April 8, 2014. 




CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)          11
                   APPENDIX 8
                   Agency Comments




                 DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Center.s for Medh::are & Medicaid Services
                                                          ---~----·--------                     ---­
                                                                                        Administrator
                                                                                        Washington. DC 20201




               DATE:            AUG 08 2014
               TO:            Daniel R. Levinson
                              I n.spector General
                                                    /S/
               FROM:         Mai\lyn 1/avellller
                             Administi'ulru-

               SUBJECT:       Office oflnspector General (O!G) Draft Report: CMS Has Yet to Enforce a
                              Statutory Provision Related to Rural Health Clinics, (OE!-05-J J-00290)


               Thank you for the opportunity to review and comment on the subject report. Rural Health
               Clinics (RHCs) were created in 1997 to address the shortage of physicians in ntral areas. RHCs
               must meet two location requirements: 1) they must be located in ntral areas. and 2) they must be
               located in areas that have a shortage of health care providers. RHCs receive enhanced Medicare
               and :V1edicaid payment for most services.

               The O!G found that approximately !2 percent of RHCs no longer met the location requirements
               in 20! 3. Pursuant to the Balanced Budget Act of 1997, OIG indicates that these RHCs should
               only continue to qualify as RHCs and receive enhanced reimbursement if they are determined to
               be "essential providers"- However, OIG indicated that the Centers for Medicare & Medicaid
               Services (CMS) has yet to issue final regulations that would allow RHCs that do oot meet the
               !oc;Uion requirements to quality as essential providers.

               The OIG's recommendation and CMS' response to that recommendation arc discussed below.

               t;)TG Recommendation

               The O!G recommends that CMS issue regulations to ensure that RHCs determined to be essential
               providers remain certitied as RHCs_

               CMS Response

               The CMS thanks OIG for their efforts on this issue,




CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)                                       12
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Ann Maxwell, Regional
                   Inspector General for Evaluation and Inspections in the Chicago regional
                   office, Thomas Komaniecki, Deputy Regional Inspector General, and
                   Laura Kordish, Deputy Regional Inspector General.
                   Lisa Minich served as the team leader for this study, and Hilary Slover
                   served as the lead analyst. Other Office of Evaluation and Inspections
                   staff from the Chicago regional office who conducted the study include
                   Elliot Curry. Central office staff who provided support include
                   Kevin Farber, Kevin Manley, and Christine Moritz.




CMS Has Yet To Enforce a Statutory Provision Related to Rural Health Clinics (OEI-05-13-00290)   13
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
